OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/COLOMBIA’S
ALTERNATIVE DEVELOPMENT
PROGRAM
AUDIT REPORT NO. 1-514-10-004-P
March 12, 2010




SAN SALVADOR, EL SALVADOR
Office of Inspector General


March 12, 2010

MEMORANDUM

TO:             USAID/Colombia Mission Director, Ken Yamashita

FROM:           Regional Inspector General/San Salvador, Catherine Trujillo /s/

SUBJECT:        Audit of USAID/Colombia’s Alternative Development Program (Audit Report No.
                1-514-10-004-P)


This memorandum transmits our final report on the subject audit. We have carefully considered
your comments on the draft report in finalizing the audit report and have included your response
in appendix II of the report.

The report contains three recommendations for corrective action. On the basis of your written
comments, in which you described actions already taken or initiated to address our concerns,
we consider that final action has been taken on recommendation 1, while a management
decision has been reached on recommendations 2 and 3. Determination of final action will be
made by the Audit Performance and Compliance Division upon completion of the planned
corrective actions.

I want to express my sincere appreciation for the cooperation and courtesies extended to my
staff during this audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
Tel. (503) 2501-2999—Fax (503) 2228-5459
www.usaid.gov/oig
CONTENTS
Summary of Results ......................................................................................................1

Background .......................................................................................................................3

Audit Objectives ................................................................................................................4

Audit Findings .................................................................................................................5

Has USAID/Colombia’s alternative development
program achieved its main goals? ................................................................................... 5

     USAID/Colombia Should Strengthen Program Sustainability .................................... 8

     USAID/Colombia Should Improve Data Quality and Program Monitoring................. 11

Other Matter .................................................................................................................... 13

Were the actions taken by USAID/Colombia
in response to the recommendations in Audit
Report No. 1-514-07-009-P effective? ............................................................................ 14

Evaluation of Management Comments .......................................................................... 19

Appendix I - Scope and Methodology ......................................................................... 20

Appendix II - Management Comments ....................................................................... 22

Appendix III – Combined ADAM and MIDAS
Program Indicator Results FY 2007 – June 30, 2009 (Unaudited) ............................ 25
SUMMARY OF RESULTS
Despite the sustained effort of the U.S. Government and its counterpart in the
Government of Colombia, the region continues its struggle to combat the production of
illicit crops and narcotics trafficking. Colombia is the leading regional producer of these
crops. The United Nations Office of Drugs and Crime 2008 annual survey identified
81,000 hectares of coca and reported an estimate of 394 hectares of opium found in
Colombia. Colombia remains responsible for up to 90 percent of the cocaine and much
of the heroin entering the United States. USAID/Colombia is the lead agency in the
implementation of alternative development activities, and it implements its alternative
development program primarily 1 through the following two 3-year contracts (each of which
have been extended twice for 1-year periods) (see page 3).

   The Areas for Municipal-Level Alternative Development (ADAM) project, a $190 million
    contract that implements agricultural and infrastructure activities (see
    page 3).

   The Additional Investment for Sustainable Alternative Development (MIDAS) project,
    a $166 million contract that implements alternative development activities in four
    components: agribusiness, commercial forestry, small and medium enterprises, and
    policy (see page 3).

In May 2007, the Regional Inspector General/San Salvador issued Audit Report No.
1-514-07-009-P, which reported on several issues affecting implementation of
USAID/Colombia’s alternative development program and made 10 recommendations to
improve the program (see page 14).

The Office of Inspector General conducted this audit as part of its fiscal year 2009 audit
plan to determine whether (1) USAID/Colombia was achieving its main goals under the
alternative development program, and (2) to determine if the actions taken by
USAID/Colombia in response to the recommendations to its prior audit of the alternative
development program were effective (see page 4).

The audit concluded that with respect to the first objective, USAID/Colombia’s alternative
development program has partially achieved its main goals. The program has
contributed to expanding legitimate livelihoods in the agricultural sector, as well as
expanding opportunities for small and medium enterprises, but in some areas the
sustainability of these livelihoods is questionable. It has also contributed to promoting
sustainable economic development in rural areas vulnerable to illicit crops. However,
the program has not contributed to a significant reduction of illicit crop production and
supply (see pages 5–6). The audit identified opportunities to strengthen program
sustainability (see page 8) and to improve data quality and program monitoring (see
1
  USAID/Colombia’s alternative development program also includes several smaller programs:
(1) a 3-year, $5.8 million cooperative agreement to ACDI/VOCA to increase the competitiveness
and sustainability of the coffee sector; (2) a 3-year, $12 million contract to the Instituto Nacional
de Vías to improve and pave a portion of a main thoroughfare in the department (a political and
administrative division similar to a “state” in the United States) of Putumayo; and (3) an 18-month,
$1.4 million contract to Associates in Rural Development to strengthen the institutional capacity
and governance of Colombia’s protected areas.


                                                                                                   1
page 11). Also, the audit includes another matter regarding the aerial eradication
performed by another U.S. Government agency, which sometimes negatively impacts
beneficiaries of USAID/Colombia’s alternative development program (see page 13).

With respect to the second objective, the audit concluded that USAID/Colombia
responded effectively to 9 of the 10 recommendations in the original audit report (see
page 14). The audit determined that although USAID/Colombia had taken action on the
recommendation that it develop and implement a system to help ensure that it meets the
requirement in USAID’s Automated Directives System 203 to periodically sample and
verify implementing partner data for completeness, accuracy, and consistency,
opportunities exist to improve data quality and program monitoring (see page 17).

This audit makes the following three recommendations:

   Perform a sustainability review of existing projects to identify those that can optimize
    the impact of the alternative development program and direct remaining resources
    under the two contracts to the types of activities that have demonstrated a strong
    potential for sustainability (see page 10).

   Establish defined procedures to sample on a routine basis the accuracy of the
    contractor’s estimating methodologies, quality, and accuracy of the underlying data
    that serves as the basis for reported results (see page 13).

   Require Associates for Rural Development to strengthen its internal controls to
    decrease the risk of errors in the data collected and results reported at the operating
    level (see page 13).

In response to our draft report, USAID/Colombia concurred with all three
recommendations and outlined measures that its implementing partner had already
initiated or proposed to carry out to ensure that appropriate procedures and controls
were in place to address the auditors’ concerns. On the basis of mission written
comments, we consider that final action has been taken on recommendation 1, while a
management decision has been reached on recommendations 2 and 3. Determination
of final action will be made by M/CFO/APC upon completion of the planned corrective
actions (See page 19). USAID/Colombia’s comments are included in their entirety in
appendix II.




                                                                                          2
BACKGROUND
Despite interventions by the U.S. Government through agreements such as the Andean
Counternarcotics Initiative and Plan Colombia, the Andean region continues to struggle
with the production of illicit crops, most notably coca leaf and opium poppy. Colombia is
the leading regional producer of these crops. The United Nations Office of Drugs and
Crime 2008 annual survey identified 81,000 hectares of coca and reported an estimate
of 394 hectares of opium found in Colombia. Colombia remains responsible for up to 90
percent of the cocaine and much of the heroin entering the United States. Together, the
governments of Colombia and the United States use a three-tiered counternarcotics
strategy: interdiction, eradication, and alternative development. The U.S. Government
and its counterpart in the Government of Colombia, Accion Social, work to strengthen the
culture of legality and the social and economic development in areas whose populations
are vulnerable to or already affected by the production of illicit crops and narcotics
trafficking. The Government of Colombia has declared that the cultivation of illicit crops is
prohibited and enforces a zero–illicit crops policy for all alternative development projects.

Alternative development activities encourage the stimulation and viability of licit, rural
economies. USAID/Colombia is the lead agency in the implementation of alternative
development activities and it describes the strategic initiatives of its alternative
development program as expanding legitimate livelihoods, promoting sustainable
economic development in rural areas vulnerable to illicit crops, and contributing to a
significant reduction of illicit crop production and supply. USAID/Colombia implements its
alternative development program primarily through two contracts with Associates for Rural
Development (ARD). ARD is responsible for the implementation of two projects under two
3-year contracts (each which are expected to be extended for two 1-year periods):

   The Areas for Municipal-Level Alternative Development (ADAM) project, a $190 million
    contract awarded in October 2005 to provide the necessary technical expertise to
    design, manage, and evaluate various program activities that will (1) reduce illicit
    crop planting and production; (2) create an environment that will promote and
    enhance the viability of the overall level of political, economic, and social
    development; and (3) sustain programs based on the well-intentioned application of
    various resources. The ADAM project implements agricultural, infrastructure, and
    local governance activities.

   The Additional Investment for Sustainable Alternative Development (MIDAS) project,
    a $166 million contract awarded in December 2005 to provide the necessary
    technical expertise to design, manage, and evaluate various program activities that
    will (1) eliminate illicit crop planting and production; (2) create an environment that
    will promote and enhance the viability of the overall level of political, economic, and
    social development; (3) sustain programs based on the well-intentioned application
    of various resources; (4) improve the administration and access to justice and the
    protection of human rights; and (5) reduce corruption. The MIDAS project
    implements activities in four components: agribusiness, commercial forestry, small
    and medium enterprises, and policy.




                                                                                           3
As of June 30, 2009, USAID/Colombia had obligated more than $289 million for its
alternative development program projects. Expenditures as of this date amounted to
more than $248 million.

In early 2007, the Regional Inspector General/San Salvador conducted an audit of
USAID/Colombia’s alternative development program to determine whether alternative
development activities had achieved planned results and whether USAID/Colombia used
performance-based contracting methods to the maximum extent possible in accordance
with Federal Acquisition Regulation 37.102. The Regional Inspector General/San
Salvador issued Audit Report No. 1-514-07-009-P, dated May 30, 2007, reporting on
several issues affecting program implementation and made 10 recommendations to
improve the program.


AUDIT OBJECTIVES
The Regional Inspector General/San Salvador conducted this audit as part of its fiscal
year 2009 annual plan to answer the following questions:

   Has USAID/Colombia’s Alternative Development Program achieved its main goals?

   Were the actions taken by USAID/Colombia in response to the recommendations in
    Audit Report No. 1-514-07-009-P effective?

Appendix I contains a discussion on the audit’s scope and methodology.




                                                                                    4
AUDIT FINDINGS
Has USAID/Colombia’s                     alternative        development             program
achieved its main goals?
USAID/Colombia’s alternative development program has partially achieved its main goals.
In several areas, the program has expanded legitimate livelihoods and promoted
sustainable economic development in rural areas vulnerable to illicit crops. In other areas,
however, the sustainability of alternative livelihoods is questionable. Furthermore, the
program has not contributed to a significant reduction of illicit crop production and supply.

USAID/Colombia’s alternative development program has contributed to expanding
legitimate livelihoods in the agricultural sector, as well as to those generated under small
and medium enterprises. The program has offered its beneficiaries the opportunity to
expand, diversify, and strengthen their sources of income. The program has also
contributed to promoting sustainable economic development in rural areas vulnerable to
illicit crops. Several of the activities, including the following, have demonstrated their
potential to create significant, long-lasting impacts on local economies:

   Project beneficiaries in the department of Putumayo have increased their fish
    production through improved fish farming techniques. In training sessions conducted
    by project subimplementers, these beneficiaries learned proper feeding, cleaning,
    and harvesting techniques. With the increased fish production, the beneficiaries
    gained not only an improved food source for their personal consumption, but also an
    additional source of income from sales of fish in the local market.

   Beneficiaries in the department of Putumayo have improved their cattle raising
    techniques through the implementation of silvopasture practices. These improved
    practices help to rehabilitate the soil for future agricultural activities and provide
    improved nourishment for cattle. Through these practices, beneficiaries maintain
    fewer, but healthier, cattle and see increased milk production.

   The Compañía Nacional de Empaques in Medellin agreed to purchase 80 percent of
    the fique 2 produced by the growers’ associations strengthened by USAID/Colombia’s
    alternative development program. Additionally, the company’s sustainability plan
    highlights the achievements attained in terms of technical and entrepreneurial
    formation that have given beneficiaries valuable entrepreneurial tools to manage
    their own crops. The alliance created with Servicio Nacional de Aprendizaje helped
    to accomplish this goal through the 48 agro-ecological management courses that this
    institution has taught thus far.

   An alternative development program–supported water treatment plant has spurred
    economic development in the municipality of Rivera, Huila. The water treatment
    facility provides clean water to families and to several small hotels that appeal to
    local tourists. The plant also provides clean water to a local boarding school that

2
 Fique is a natural fiber grown in the leaves of the fique plant, native to the Andean regions of
Colombia.


                                                                                               5
      attracts students from the nearby city of Neiva. Beneficiaries estimate that the plant
      will meet their needs for the next 20 years.

While the program had a positive impact on some beneficiaries, it has not significantly
reduced illicit crop production and supply overall. According to the United Nations Office
on Drugs and Crime (UNODC) June 2009 report, Coca Cultivation Survey in Colombia,
there has been no significant change in the number of hectares used for coca cultivation
for the 1-year periods ending December 2006 and December 2008.

Table 1 illustrates the total area under coca cultivation in Colombia by department along
with the dollar volume of activities implemented by USAID/Colombia’s alternative
development program with each respective department. As of December 2006 and
December 2008, the UNODC reported an overall 4 percent increase in the total area
under coca cultivation in the 24 departments surveyed for its annual report. During the
2006–2008 timeframe, USAID/Colombia’s main alternative development projects, ADAM
and MIDAS, reported the implementation of 863 activities in 17 departments throughout
the country, with a cumulative project value of $307,473,748. 3 However, as shown in
the table, there is little correlation between the amount invested and reductions of coca.
Despite large investments in Cauca and Santander, production increased by 158
percent and 107 percent, respectively. At the same time, in regions with no investment
such as Arauca and Vichada, production dropped significantly.




3
    Cumulative project value includes community and cost sharing contributions.


                                                                                          6
    Table 1. Impact of US Assistance on Coca Production 4
                                                                   Total Value of
                          No.          No.
                                                                    ADAM and
        Department      Hectares     Hectares      % Change
                                                                  MIDAS Projects
                         2006         2008
                                                                  in U.S. Dollars
     Amazonas                 692          836               21          6,042,000
     Antioquia              6,157        6,096               -1        24,347,000
     Arauca                 1,306          447              -66                   0
     Bolívar                2,382        5,847              145        13,650,000
     Boyacá                   441          197              -55          1,167,000
     Caldas                   461          187              -59            791,000
     Caquetá                4,967        4,303              -13             31,000
     Cauca                  2,104        5,422              158        41,752,000
     Cesar                      0            5                           5,735,000
     Chocó                    816        2,794              242          1,541,000
     Córdoba                1,216        1,710               41        10,756,000
     Cundinamarca             120           12              -90        15,414,000
     Guainia                  753          625              -17                   0
     Guaviare               9,477        6,629              -30                   0
     La Guajira               166          160               -4                   0
     Magdalena                271          391               44          1,124,000
     Meta                  11,063        5,525              -50                   0
     N. de Santander          488        2,886              491          3,462,000
     Nariño                15,606       19,612               26        30,496,000
     Putumayo              12,254        9,658              -21        23,991,000
     Santander                866        1,791              107        22,988,000
     Valle del Cauca          281        2,089              643          1,691,000
     Vaupes                   460          557               21                   0
     Vichada                5,523        3,174              -43                   0

This audit is making programmatic recommendations in other areas discussed below,
which, if implemented effectively, could further impact the mission’s contribution to
reducing illicit crop production and supply. Specifically, the mission should focus on
opportunities to strengthen program sustainability and to improve data quality and
program monitoring. Furthermore, under the other matters section, the audit addresses
and issue regarding the aerial eradication performed by another U.S. Government
agency that sometimes negatively impacts the beneficiaries of USAID/Colombia’s
alternative development program. These issues are addressed in further detail below.




4
 Unaudited data; source USAID/Colombia’s alternative development program officials and
UNODC’s June 2009 report, Coca Cultivation in Colombia.


                                                                                      7
USAID/Colombia Should
Strengthen Program
Sustainability
Summary. USAID/Colombia’s operational plans address the promotion of sustainable
economic development. Furthermore, the contractual terms contained within both the
ADAM and MIDAS projects require the contractor to design and implement strategies to
create sustainable activities that can be continued after the expiration of USAID
assistance. Despite the progress made in assisting a number of beneficiaries to identify
viable projects, without continued USAID assistance, the future sustainability of several
projects is questionable. This has happened because these projects lack elements of
practicality, competitiveness, profitability, and sustainability. When project activities do
not prove to be sustainable, beneficiaries become increasingly vulnerable to turning to
illicit activities.

One of the goals addressed in USAID/Colombia’s operational plans for fiscal years (FY)
2007 through 2009 is to promote sustainable economic development in rural areas
vulnerable to illicit crops. To accomplish this, USAID/Colombia designed two contracts,
ADAM and MIDAS, to support projects with the goal of creating sustainable activities
that could be continued after the end of the USAID-assisted program. Per the terms in
both the ADAM and MIDAS contracts, the contractor defined sustainability as follows:

     The ADAM project will design and implement approaches and strategies that
      promote clear, practical, sustainable, and profitable activities. These activities are to
      be oriented to the “Colombianization” of the program by strengthening national,
      departmental, and local organizations.         By strengthening these public and
      nongovernmental organizations, Colombian “legacy institutions” can take over these
      activities after the close of the program.

     The MIDAS project is a dominantly private sector project development approach,
      with a focus on the development and implementation of sustainable agribusinesses,
      commercial forestry businesses, and small and medium enterprises. To be
      sustainable, a business must operate in a highly competitive manner in viable
      markets on an ongoing basis.

Both ADAM and MIDAS projects have assisted a number of beneficiaries to identify
viable business opportunities in rural areas that otherwise might be vulnerable to illicit
lifestyles. To measure and report on the success of each project, USAID/Colombia uses
indicators, 5 including the number of families benefitted and the total number of jobs
created. As of June 30, 2009, USAID/Colombia reported it exceeded its combined
targets for both of these indicators under the ADAM and MIDAS projects. During the
course of the audit, Office of Inspector General auditors met several project beneficiaries
successfully implementing USAID-supported project activities. However, as further
described in the following examples, without continued USAID-assistance, the future
sustainability of several projects is questionable.



5
    A full table of the indicators is included in appendix III.


                                                                                             8
     A farmer in the department of Santander joined the alternative development program
      with an interest in participating for the first time in Colombia’s lucrative rubber
      production industry. To join, the farmer sold his livestock and used his residences as
      collateral for a COP 6 60,000,000 credit (approximately $30,000) to purchase enough
      saplings to populate 21 hectares of land. The program provided the beneficiary with
      24 months of technical assistance that concluded in December 2009, although the
      trees will not produce for at least another 5 years. Without continued assistance
      from USAID/Colombia, the farmer does not believe it will be possible to continue
      cultivating his crop.

     USAID/Colombia has provided significant and long-standing support to a palm heart
      processing plant in the department of Putumayo. Although many local palm heart
      beneficiaries lack business and entrepreneurial skills, they are encouraged to
      become partners of the plant, which purchases much of its materials from local
      beneficiaries. Currently, the plant does not have an adequate plan to commercialize
      its products on local and international markets, has faced escalating operating costs,
      and has laid off a number of employees. The plant’s manager stated that without
      continued USAID assistance, the plant’s sustainability is in question. Presently, the
      survival of the plant rests on the sales from its bottled water division.

     Cacao producers in San Vicente de Chucuri, Santander, may not receive their
      desired certification, which relies on the construction of 120 sanitary units. Under the
      alternative development program, the project completed its contractual obligation to
      construct 50 units, and as a result, reports this project among its concluded projects.
      Although municipal officials understand the dilemma facing the local producers, one
      official stated that a contractual constraint does not allow the municipality to provide
      funds directly to the local cacao producers association. If the identified constraint is
      fixed, the municipality will need to bid the project to local construction companies, a
      process that will take up to 1 year and continue to stall or jeopardize the advance of
      the certification.

     Five families in the Sierra Nevada de Santa Marta received technical assistance to
      operate an inn and encourage tourism activities in the area. Beneficiaries received
      nine training seminars in hospitality, bird watching, water sports, and first aid, among
      other topics. However, the inn must compete with several other inns with more
      developed tourism potential. The families find it difficult to succeed in the area’s
      developing tourism market and earned a total income of COP 600,000
      (approximately $300) in 2008. Each of the five families operating the inn received
      $60, an insufficient amount to sustain either the business or their families.
      Therefore, alternative sources of income are still needed.

     Blackberry farmers in the department of Cauca received technical assistance
      through the alternative development program. To be sustainable, a blackberry farmer
      must produce approximately 2 to 3 tons of blackberries a week. Also, beneficiaries
      must make a significant upfront investment for a proper irrigation system. Given the
      appreciable effort needed to produce sustainable income through blackberry farming,
      the beneficiaries are losing enthusiasm for the activity and are scaling back the
      production of their crop.

6
    Colombian pesos.


                                                                                            9
The project beneficiaries have received technical assistance under the alternative
development program, and therefore are included in USAID/Colombia’s reported results.
However, owing to the uncertainty underlying the continued existence of these activities,
without further USAID support, the possibilities of these projects becoming sustainable
economic development projects is questionable.

These problems impacting sustainability occurred primarily because these projects
lacked the elements of practicality, competitiveness, profitability, and sustainability in
which the projects were to concentrate. Without these important factors, there is little
impetus to search for financing alternatives that will allow the project to continue once
USAID funding stops. In their current states, few of the projects described here are
likely to produce continuing employment opportunities or provide much of a perceived
benefit for the wider community apart from the independent producer.

The main goals of USAID/Colombia’s alternative development program include
expanding legitimate livelihoods and promoting sustainable economic development in
rural areas vulnerable to illicit crops. If activities are not sustainable beyond USAID
assistance, project beneficiaries become increasingly vulnerable to turning themselves
and their lands to illicit activities. While it is unrealistic to expect every activity supported
by USAID/Colombia to be sustainable, those activities that do demonstrate a strong
potential for continued viability could, with the appropriate resources devoted to their
implementation, significantly impact the local area.

Both the ADAM and MIDAS projects are entering their fifth and final year. As the
projects move toward closeout, USAID/Colombia should reassess the potential impact of
its alternative development project activities. By narrowing its focus to concentrate on
strengthening the weak links in the value chain, USAID/Colombia may overcome
barriers that damage the potential sustainability of its alternative development activities.

    Recommendation 1.          We recommend that USAID/Colombia perform a
    sustainability review of the projects to identify those that can optimize the impact
    of its alternative development program and direct its remaining resources under
    both contracts to the types of activities that have demonstrated a strong potential
    for sustainability.




                                                                                              10
USAID/Colombia Should
Improve Data Quality and
Program Monitoring
Summary. USAID’s Automated Directive System (ADS) outlines five data quality
standards that it deems useful to manage for results and to add credibility to reporting. It
also describes how data quality assessments can be conducted when data from
secondary sources must be relied upon. USAID/Colombia does not have an established
formal process to require a routine independent verification of results reported by the
contractor to the supporting records maintained at the operational 7 level. Instead, the
mission relies on consolidated information obtained from the contractor from numerous
subimplementing partners. In several instances, the contractor deviated from the
accepted data collection and reporting procedures it detailed in its project performance
management plans. The errors in data collection and reporting occurred because many
subpartners are unable to maintain an adequate monitoring and evaluation system.
Also, the geographic disbursement of the program prevents routine data quality reviews.
However, when reported results are not regularly verified, the mission risks basing
decisionmaking on inaccurate and imprecise data.

USAID’s ADS 203.3.5.1 outlines five data quality standards that it deems useful to
manage for results and to add credibility to its reporting: validity, integrity, precision,
reliability, and timeliness. Furthermore, ADS 203.3.5.3.b details how data quality
assessments can be conducted when data comes from secondary sources. When data
are not under USAID control, data quality assessments should place an increased focus
on the accuracy and apparent consistency of the data. Missions should either compare
central office records with those at field sites or meet regularly with implementing
partners to determine the accuracy and credibility of data reported in periodic reports.

USAID/Colombia does not have a formal process in place requiring routine independent
verification of the results data reported by the contractor to the supporting records
maintained at the operational level. USAID/Colombia relies on the information supplied
by the contractor to measure the progress of its alternative development program
through performance indicators. As of July 2009, the ADAM and MIDAS projects
reported working with a combined total of 1,051 activities in 25 departments throughout
Colombia. Subimplementing partners, working at the operating level, enter the results of
their activities directly into a Web-based project monitoring and evaluation system.
According to contractor officials, there are 400 MIDAS project operators and more than
600 ADAM project operators who are responsible for entering collecting and reporting
results information. This geographically disbursed data is then accumulated by the
contractor, which consolidates the results for each performance indicator and reports to
USAID/Colombia through quarterly progress reports.

USAID/Colombia relies on this consolidated data to report the accomplishments of the
alternative development program. As discussed, the underlying details supporting the
reported results are collected, archived, and initially entered into the monitoring and

7
  Both the ADAM and the MIDAS projects conduct work through numerous subcontractors and
subgrantees of USAID funds. These subrecipients are responsible for the oversight of the
various activities under the projects, and are, for the purposes of this report, said to be working at
the operational level.


                                                                                                   11
evaluation system at the operating level by approximately 1,000 different system users.
The decentralized method of data collection on a high volume of program data increases
the risk of errors in data counting and reporting. For example, in several instances, the
contractor did not follow the accepted data collection and reporting procedures, and in
others, reported data could not be validated:

   USAID/Colombia reported that the ADAM and MIDAS projects together created a
    total of 284,622 jobs, as of June 30, 2009. A job, as defined in the projects’
    performance management plans, is an employment opportunity (for either full-time or
    part-time occupancy, for an indefinite or temporary term) generated primarily as a
    result of USAID assistance to individuals, micro, small, medium, or large private
    sector enterprises, cooperatives, and foundations. According to the indicator
    definition, a full-time equivalent position would be counted when an individual was
    paid for an equivalent 8-hour work day. However, in practice, the contractor did not
    discretely count the real number of full-time equivalent jobs, but rather computed the
    number of jobs using the Government of Colombia’s published manpower estimates
    for the number of work days required to plant, maintain, or rehabilitate one hectare of
    several types of agricultural products. For example, one farmer in the program
    actually employed only one person to work his land. However, using the manpower
    estimates published by the Government of Colombia, working the area of land
    owned by the farmer would take five full-time equivalents. In this case the contractor
    is reporting having created five jobs when in actuality only one job was created.

   The number of hectares supported by the program, as outlined in one project’s
    performance management plan, would be counted only after specific program
    support for those hectares began. However, in practice, the contractor counts not
    only the number of hectares receiving program support, but also the number of
    hectares that could be supported in the future. For example, if an activity supports
    10 hectares of a 20-hectare farm, the contractor makes the presumption that the
    beneficiary may decide to expand his production, using the technical assistance
    received from the project, to the additional 10 hectares of land. As a result, the
    contractor reporting in this case will report having assisted a 20-hectare parcel of
    land.

   The audit conducted tests to validate the results reported to the contractor by the
    projects’ subimplementing partners for 11 activities. The supporting documentation
    provided for 8 of the 11 activities was incomplete. Specifically, labor reports lacked
    employee signatures certifying the time, the number of days, and the dates worked.
    Also, other examples of supporting documentation disclosed that subimplementing
    partners reported some beneficiaries who had only attended one introductory class
    or had voluntarily withdrawn from an activity as having been benefitted through the
    project.

   With regard to project monitoring, the audit reviewed the results that the contractor’s
    monitoring and evaluation staff reported to USAID/Colombia for the ADAM project for
    the indicator “number of families benefiting from alternative development activities.”
    In its quarterly report for the period ending June 30, 2009, the ADAM project reported
    that a cumulative total of 65,036 families had benefitted from its activities. This
    reported amount differed from the data maintained in the project’s Web-based
    monitoring and evaluation database of 72,789—an understatement of approximately



                                                                                        12
   11 percent. According to ADAM officials, it is not possible to recalculate the result
   reported. Instead, the number is reached solely through the use of a mathematical
   formula. Furthermore, the audit deemed that much of the documentation provided to
   support the total number of families benefitted was incomplete or inadequate.

These errors occurred because many subimplementing partners lacked the necessary
training to maintain an adequate monitoring and evaluation system, and according to
USAID/Colombia and contractor officials, the sheer magnitude of the alternative
development program activities made it difficult to collect, accumulate, and report
discrete activity outputs. Also, the geographic disbursement of the program’s activities
prevented regional offices from conducting routine data quality reviews.

When reported results are not verified regularly, the accuracy, precision, and integrity of
the data cannot be assessed with a great degree of certainty and reported results may
not reflect actual results. Therefore, USAID/Colombia risks basing its decisionmaking,
resource allocation, and results reporting on inaccurate and imprecise data.

Some actions are underway to increase the verification of the results reported by the
subimplementing partners; for example, through a contract with the University of
Antioquia, a team of university students are implementing a system to verify reported
results at the operating level. To ensure that this issue continues to receive appropriate
attention, this audit makes the following recommendations.

   Recommendation 2. We recommend that USAID/Colombia, establish defined
   procedures to sample on a routine basis the accuracy of the contractor’s
   estimating methodologies and quality and accuracy of the underlying data that
   serves as the basis for reported results.

   Recommendation 3. We recommend that USAID/Colombia, require Associates
   in Rural Development to strengthen its internal controls, such as providing
   training to its subimplementing partners, to decrease the risks of errors in the
   results data collected and reported at the operating level.

Other Matter

In addition to the audit findings discussed above, the audit identified one area where
increased coordination with another U.S. Government agency could reduce the
erroneous eradication of alternative development program beneficiary lands. According
to a protocol agreement between USAID/Colombia and its counterpart in the
Government of Colombia, Acción Social, any community that would like to be considered
for mission alternative development assistance must be certified as being free of illicit
crops prior to its qualification for assistance. In doing so, the alternative development
program adheres to the Government of Colombia’s policy that the cultivation of any illicit
crop is strictly prohibited. The UNODC, acting on the behalf of the Government of
Colombia, delineates project boundaries and verifies, using a combination of satellite
and ground monitoring, that the area is free of illicit crops.

Despite these measures taken, beneficiaries do not have a guarantee that they will not
be subject to aerial eradication. Officials from USAID/Colombia and the Department of
State’s Narcotics Affairs Section acknowledge that occasionally, land that the


                                                                                        13
Government of Colombia has certified as being illicit free and has come under the
alternative development program has been subject to fumigation (eradication). The
audit interviewed beneficiaries from two alternative development activities in the
department of Putumayo who lost their licit agricultural crops because of aerial
eradication efforts.

Beneficiaries are still at risk despite demonstrating that their land is illicit free because
the different goals and objectives that the U.S. Government is trying to achieve under its
three-tiered counternarcotics strategy (interdiction, eradication, and alternative
development) do not always complement each other. For example, a key U.S.
Government’s counternarcotics objective is to assist the Government of Colombia in its
efforts to eliminate the cultivation of illicit drug crops. Under the U.S. Department of
State’s Bureau for International Narcotics and Law Enforcement Affairs, the Office of
Aviation supports the Colombian National Police’s efforts to eradicate coca through
aerial fumigation. As part of those efforts, the Office of Aviation uses airborne digital
cameras to photograph suspected coca fields. If coca is identified, these fields become
targets for aerial fumigation.

According to officials from both USAID/Colombia and the Department of State’s
Narcotics Affairs Section, the routes used for aerial fumigation are based on
predetermined global positioning system coordinates. However, while in the air, if the
pilot is able to visibly identify coca outside of the predetermined area, then a decision to
eradicate can be made. Unfortunately, some licit crops share an appearance similar to
that of the coca leaf, creating a possibility for human error in the decision to eradicate.

According to USAID/Colombia and Narcotics Affairs Section officials, there is a
complaint process established for anyone who believes that their land has been
fumigated erroneously. The complaint process can be lengthy, and if beneficiaries
cannot provide the correct global positioning system coordinates of their land and the
date of the alleged fumigation, any damages resulting from the fumigation can be difficult
to prove. Adding to the challenge is that the effects of aerial fumigation are not
immediately visible but appear days or weeks after the field was sprayed. If a complaint
is successful, the beneficiary is compensated for the loss. However, it is doubtful that
the beneficiary can truly recover the time and effort invested in the cultivation of the licit
agricultural crops on the land. And having lost their investment once, the beneficiary
may decide not to continue with the production of licit crops.

Officials from both USAID/Colombia and the Narcotics Affairs Section state that
interagency coordination has improved and more sharing of information is helping to
ensure that alternative development program beneficiaries are better identified and
considered prior to instances of aerial fumigation. Nevertheless, the protection of these
beneficiaries cannot be guaranteed. Therefore, we suggest that USAID/Colombia
continue to strengthen its interagency coordination with the Narcotics Affairs Section to
work for the mutual benefit of the two organizations.

Were the actions taken by USAID/Colombia in response to the
recommendations in Audit Report No. 1-514-07-009-P effective?

USAID/Colombia responded effectively to 9 of the 10 recommendations detailed in the
original audit report. Despite the mission’s action to address recommendation no. 7, the


                                                                                           14
audit concluded that more effort is necessary to monitor the quality of the contractor
reported performance data. The following paragraphs discuss each recommendation
and the mission’s actions along with conclusions concerning the effectiveness of the
mission’s actions.

Original Recommendation No. 1: The report recommended that USAID/Colombia
require Associates in Rural Development to develop an action plan to shorten the time it
takes for implementation to begin.

In response to the recommendation, USAID/Colombia and Associates in Rural
Development streamlined the process for the formulation of municipal initiatives for the
ADAM project. The mission eliminated the requirement to select project activities and
beneficiaries through a public bid of subimplementing partners, which significantly
reduced the average processing time of municipal initiatives from 22 weeks in 2006 to
an average of 9 weeks.

At the time of the previous audit, the MIDAS project had only begun to initiate its
activities and had not established an implementation timeline. MIDAS took actions to
streamline its operational processes and provide training to grantees. As a result,
MIDAS established a timeframe of approximately 8 months for the processing of activity
proposals down to the execution of the subaward. Based on this information,
USAID/Colombia effectively implemented this recommendation.

Original Recommendation No. 2: The report recommended that USAID/Colombia
establish guidelines on investment per hectare of licit crop and ensure that the
implementing partners adhere to those standards by notifying them in writing or by
modifying their contracts.

In response to the recommendation, USAID/Colombia updated its guidance for
investment per hectare of licit crop. The mission based this guidance on a series of
factors: (1) the difference in cost structures between crops and regions, considering
such factors as labor and transportation costs; (2) the difference in cost structures
between the establishment of new crops and supporting existing crops to encourage
higher productivity; and (3) the community assistance model used by the program. Any
activity that exceeded the newly-updated guidelines for investment per hectare of licit
crop must receive USAID/Colombia contracting officer technical representative approval
prior to the implementation of the program.

USAID/Colombia established limits on the investment per hectare of licit crops for
MIDAS-type activities between $0 and $500. The audit verified that for MIDAS activities
implemented after September 2008, most fell within the established guidelines. Those
that exceeded the limit received the necessary approval. Investment limits for ADAM-
type activities were set between $0 and $1,400. For ADAM activities implemented after
September 2008, the audit verified that most fell within the established guidelines.
Those that exceeded the limit received the necessary approval. Based on this
information, USAID/Colombia effectively implemented this recommendation.




                                                                                     15
Original Recommendation No. 3: The report recommended that USAID/Colombia
enter into a formal verification agreement and plan with Acción Social that specifically
addresses (1) the areas where USAID is working and includes a schedule of verification
to be carried out by Acción Social and reported to USAID, and (2) actions to be taken if
coca is found.

In response to the recommendation, USAID/Colombia entered into negotiations with its
Government of Colombia counterpart, Acción Social, to develop a formal protocol for the
verification of the zero–illicit crops component of USAID-supported alternative
development projects. The approved protocol includes formal requirements for all
communities seeking assistance. Specifically, all agreements must be signed by both
the government and the beneficiaries, communities in a predefined geographical area
can participate, and all participating communities must be free of illicit crops. The
approved protocol also defines (1) the procedures to initially certify a community’s status
as free of illicit crops, (2) procedures to monitor the community’s continued compliance
with the zero illicit crop requirements, (3) actions required if illicit crops are identified in a
project community, and (4) steps to remove a community from the alternative
development project.

The Government of Colombia contracted the verification responsibilities to UNODC.
UNODC representatives verified that the protocol is in place and being used. Based on
these actions, USAID/Colombia effectively implemented this recommendation.

Original Recommendation No. 4: The report recommended that USAID/Colombia
(1) establish clear boundaries on the types of infrastructure works that contribute to
economic growth or meet community basic needs and therefore would be permissible
under the program, and (2) provide this guidance to its implementing partners.

In response to the recommendation, USAID/Colombia’s ADAM program updated its
selection criteria and methodology for social infrastructure fund projects. The MIDAS
project does not carry out infrastructure-related projects. In its updated guidance,
USAID/Colombia states that ADAM infrastructure projects should be decided upon after
the careful and comprehensive assessment of economic, social, and governance
conditions of each municipality. Chosen infrastructure projects should respond to
specific and particular community needs, and projects that support productive activities
or satisfy municipal infrastructure needs and services will be preferred. The contractor
updated its grants and contracts manual to include this guidance.

USAID/Colombia and its contractor have largely adhered to this criteria based on the
type of activities that have been approved. Approved projects include the improvement
of school classrooms, the construction of water treatment facilities, and the construction
of additional rooms in hospitals. Based on this action, USAID/Colombia effectively
implemented this recommendation.

Original Recommendation No. 5: The report recommended that USAID/Colombia
establish limits or standards on the amounts that can be invested in each community for
social infrastructure projects.

In response to the recommendation, USAID/Colombia updated its guidance on the limits
and standards for investments in community social infrastructure projects. The ADAM
project—the primary contract working to develop social infrastructure projects—updated


                                                                                               16
its grants and contracts manual to outline a set of 12 criteria that must be met prior to the
receipt of USAID/Colombia funding. USAID/Colombia set a general funding guideline
between $25,000 and $350,000 for projects meeting these criteria. The mission strongly
suggests that projects provide a cost-sharing component of approximately 35 to 50
percent of the total cost.

A review of ADAM social infrastructure projects showed that USAID funding levels
generally fall in between the established limits of $25,000 to $350,000 per project. No
projects exceeded the limit, and some were smaller than $25,000. Additionally, cost-
sharing with private or public funds was a component of the majority of the projects
reviewed. Based on the actions taken, USAID/Colombia effectively implemented this
recommendation.

Original Recommendation No. 6: The report recommended that USAID/Colombia
establish guidelines on cost-sharing requirements.

In response to the recommendation, the mission agreed to develop and disseminate
cost-sharing and contribution guidelines for USAID activities.          In doing so,
USAID/Colombia requests at least a 25 percent cost-sharing with its recipients but
strives for at least a 50 percent cost-share. However, according to USAID/Colombia,
this is not possible with all recipients. USAID/Colombia reserves the right to approve
projects with little to no cost-sharing.

A review of both the ADAM and MIDAS projects showed that for most projects, either
private or public funds were used as cost-sharing funds. However, USAID/Colombia
also approved some projects without a cost-sharing component. Based on this
information, USAID/Colombia effectively implemented this recommendation.

Original Recommendation No. 7: The report recommended that USAID/Colombia
develop and implement a system to help ensure that the existing requirement in ADS
203, which requires its Alternative Development Office to periodically sample and verify
its implementing partners’ data for completeness, accuracy, and consistency is met.

In response to the recommendation, USAID/Colombia hired the National University to
conduct a data quality assessment for all mission programs. Alternative development
program indicators generally received a rating of “acceptable”; however, some
weaknesses were noted in some indicators. Also, USAID/Colombia contracted the
University of Antioquia to conduct field verification of results, monitoring of activities, and
environmental compliance of selected alternative development projects or activities.
USAID/Colombia’s original 1-year contract with the university expired in April 2009. The
mission extended the contract for an additional 18 months. Since the beginning of the
contract, university students have visited more than 70 alternative development projects.

Reviews of several of the summary reports submitted to USAID/Colombia by the
University of Antioquia showed that the contractor, in conducting assigned tasks, is
assisting with the periodic sampling and verification of implementing partners’ data to
ensure completeness, accuracy, and consistency. However, as stated earlier in this
report, opportunities exist to improve data quality and program monitoring. Based on
this information, USAID/Colombia has not effectively implemented this recommendation.




                                                                                            17
Original Recommendation No. 8: The report recommended that USAID/Colombia
(1) ensure that performance indicators and their corresponding targets are developed
annually and are consistent among the various program documents, and (2) modify
implementing partner contracts to reflect the same indicators and corresponding targets.

In response to the recommendation, USAID/Colombia’s partners reflected their revised
performance indicator targets in their calendar year 2008 annual work plans.
USAID/Colombia included these revised figures in its 2008 performance management
plan. As a result, these documents are consistent. According to the contracts for both
ADAM and MIDAS projects, the work plans state the established anticipated results.
Therefore, although the October 2009 modification of the ADAM contract did not include
updates to the performance indicator targets, the contractor fulfilled its contractual
obligation by updating the annual work plans.          Based on the actions taken,
USAID/Colombia effectively implemented this recommendation.

Original Recommendation No. 9: The report recommended that USAID/Colombia
amend its contracts with Associates in Rural Development to include more performance-
based elements such as adding incentives for meeting goals, structuring payment based
on performance, and specifying penalties or reductions in fee for not meeting results.

In response to the recommendation, USAID/Colombia modified its contracts with the
contractor for both ADAM and MIDAS. With these modifications, the mission reduced
the contract period from 5 to 3 years and added two 1-year options for extension. The
mission also modified the contracts from cost-plus-fixed-fee contracts to cost-plus-
incentive-fee contracts. In both instances, the total of the possible fee earned during
each program year now consists of a 70 percent base fee and a 30 percent incentive fee
that is tied to the successful achievement of the stated performance indicators. If the
implementing partner successfully achieves 100 percent of the targets for a given
quarter, the entire incentive fee will be paid. Should the implementing partner fall short
of the targets, the incentive fee will be prorated based on performance.

USAID/Colombia took additional action to ensure improved performance for the
alternative development program. For example, it posts annual contractor performance
reports to an internet-based database. As well, the contractor primarily awards firm-
fixed-price subcontracts or fixed-obligation grants. Under these instruments, all work
must be completed satisfactorily before payment can be received. Furthermore,
USAID/Colombia, in its approval system, implemented a tracking system that will
determine the length of time needed to approve subawards. Based on the actions
taken, USAID/Colombia effectively implemented this recommendation.

Original Recommendation No. 10: The report recommended that USAID/Colombia
reprogram excess obligations totaling $18,018,502 to activities that are more urgent by
entering into additional commitments or reallocating funds among the subcommitments
and subobligations.

In response to the recommendation, USAID/Colombia prepared a pipeline analysis
showing that excess obligations would be used to fund alternative development
activities. Consequently, USAID/Colombia did not reprogram any excess obligations
and expended the funds by the end of FY 2008. Based on the actions taken,
USAID/Colombia effectively implemented this recommendation.



                                                                                       18
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Colombia concurred with the findings and recommendations contained in the
audit report and outlined specific actions that the mission and the contractor have
completed or are planning to implement to correct the identified deficiencies.

To address the first recommendation, relating to the need to perform a sustainability
review of existing projects, USAID/Colombia stated that the contractor completed
reviews of existing projects and developed “watch lists” for projects that currently face
sustainability challenges. These lists were designed to identify risks and provide
solutions for each activity. Additionally, USAID/Colombia has put in place detailed
sustainability action plans for the projects, in coordination with the departing contractor,
beneficiaries, and other partners. Based on our review of the watch lists and the
sustainability action plans, we consider that USAID/Colombia has taken appropriate
action, and consider this recommendation closed upon report issuance.

To address the second and third recommendations, concerning procedures to improve
program monitoring and strengthen internal controls, USAID/Colombia stated that the
mission has designed a new monitoring and evaluation program. This scope of work for
this program will be contracted by the mission. The proposals are being evaluated
through a full and open competitive process and the estimated award date for the
monitoring and evaluation contract is July 2, 2010. According to the mission, the new
monitoring and evaluation program will provide continued performance monitoring,
verification, and impact evaluation of program results for all USAID/Colombia programs,
including new alternative development programs, for up to 5 years. Based on our review
of the statement of work for the monitoring proposal, we consider that USAID/Colombia’s
actions represent management decisions on recommendations 2 and 3. Determination
of final action will be made by the Audit Performance and Compliance Division upon the
completion of the planned corrective actions.




                                                                                         19
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this performance audit in
accordance with generally accepted Government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. The purpose of the audit was to
determine whether (1) USAID/Colombia’s alternative development program achieved its
main goals, and (2) the actions taken by USAID/Colombia in response to the
recommendations in Audit Report No. 1-514-07-009-P were effective.

In planning and performing the audit, we assessed the mission’s internal controls related
to its alternative development program activities. The management controls identified
included the mission performance plan, mission operational plans, partner agreements
and contracts, partner performance management plans, the mission data quality
assessment, partner progress reports, the daily interaction between mission staff and
program implementers, and the mission’s annual self-assessment of management
controls as required by the Federal Managers’ Financial Integrity Act of 1982.

The audit covered the alternative development program activities under the foreign
assistance objective, “Peace and Security.” The audit was conducted in Colombia, in
and around the cities of Bogota, Bucaramanga, Medellin, Neiva, Popayan, Puerto Asis,
and Santa Marta, from August 31 to September 25, 2009. The audit primarily focused
on alternative development program activities performed under the ADAM and MIDAS
projects during FYs 2007, 2008, and the first three quarters of FY 2009. These two
projects represent approximately 95 percent of the total costs under the
USAID/Colombia alternative development program.

Methodology
To answer the audit objectives, we met with personnel from USAID/Colombia and its
contractor. We reviewed relevant documentation produced by USAID/Colombia’s
alternative development program team such as annual operational plans, project
performance management plans, and award documents. We also reviewed partner-
prepared documentation such as annual work plans and quarterly progress reports.

To determine whether USAID/Colombia’s alternative development program achieved its
main goals, we interviewed mission and contractor personnel and reviewed
documentation to determine how results are collected for the selected indicators. We
validated the cumulative reported results as June 30, 2009, by tracing mission-reported
results back to the monitoring and evaluation systems developed by the contractor.

The contractor maintains a Web-based monitoring and evaluation system, which can
only be accessed by authorized users. The contractor provided the auditors with access
to the Web site during the fieldwork stage to evaluate the internal controls of the system.



                                                                                        20
We conducted tests to validate the supporting documentation that served as the basis
for data input from the field which was eventually accumulated and used to report
progress against particular indicators for 11 activities.

Also, we determined what monitoring was done by the contracting officer’s technical
representative, the monitoring and evaluation official, and their contractor. We
determined the degree of monitoring conducted by USAID/Colombia contractors over
their subimplementing partners by reviewing available award documents and
interviewing officials of these organizations.     To determine the impact of
USAID/Colombia’s alternative development program, we interviewed officials from
USAID, the contractor, subpartners, the Government of Colombia, and United Nations
Office of Drugs and Crime.

To assess whether the actions taken by USAID/Colombia in response to the
recommendations in Audit Report No. 1-514-07-009-P were effective, we conducted
interviews with mission personnel, contractor officials, and personnel from the United
Nations Office of Drugs and Crime. We also reviewed contractor-generated data, such
as updated guidance to partners, partner manuals, and documentation supporting
investment levels per hectare of licit crops.




                                                                                   21
                                                                               APPENDIX II



MANAGEMENT COMMENTS
TO:            Catherine Trujillo, RIG/San Salvador

FROM:          Ken Yamashita, Mission Director /s/

DATE:          February 25, 2010

SUBJECT:       USAID/Colombia response to Regional Inspector General/San Salvador's
               Audit of USAID/Colombia's Alternative Development Program

Thank you for sending the draft report from the Regional Inspector General’s audit of
USAID/Colombia’s Alternative Development Program. This letter conveys our response
to the three recommendations made by the audit.

Sustainability:

The recommendation states: “Perform a sustainability review of existing projects to
identify those that can optimize the impact of the alternative development program and
direct remaining resources under the two contracts to the types of activities that have
demonstrated a strong potential for sustainability.”

The Alternative Development (AD) team has done this review, and has put detailed
sustainability action plans in place for both the ADAM and MIDAS projects in
coordination with the departing contractor, beneficiaries and other partners. These
plans, shown in Attachments 1 and 2, not only address the sustainability of specific
activities, but also the sustainability of key agricultural and commercial sectors, that are
related to the model of intervention. At the activity level, the MIDAS and ADAM projects
have developed “watch lists” of projects that are currently facing sustainability
challenges (Attachments 3 and 4). This is an active management tool designed to
identify risks and provide solutions for each one of the activities listed.

We also tackle the problem of sustainability at the sectoral level. By designing projects
that fit into national GOC sectoral strategies and have a high component of participation
from other parties, including the private and public sector and civil society, we aim to find
sustainable funding, technical support and community ownership beyond the conclusion
of the projects. This helps bridge the gap between USAID’s five year activity time frame
and the need to work in long term crops that usually take 10 to 25 years to reach their
full potential.

Our strategy addresses sustainability at the “model” level as well. Both MIDAS and
ADAM have been setting-up new intervention models in several fields. One example is
the MIDAS small and medium-sized enterprise (SME) component, which is currently
being transferred to the Government of Colombia (GOC) after proving its success in
leveraging private sector resources to fund expert technical advice for small businesses
expansion. Another example is the ADAM Community Infrastructure Model, whereby
communities manage their infrastructure projects, participating in all levels of project
implementation and accountability. In these models, the programs are developing
manuals, evaluations and papers to ensure these best practices are well documented


                                                                                          22
and available for future programs.

Based on the above, we request that this recommendation be closed upon report
issuance.

Monitoring:

The recommendation states: “Establish defined procedures to sample on a routine basis
the accuracy of the contractor’s estimating methodologies, quality, and accuracy of the
underlying data that serves as the basis for reported results.”

USAID/Colombia has defined procedures to sample on a routine basis the accuracy of
the contractor’s estimating methodologies, quality and accuracy of the underlying data.
A data quality analysis was conducted in 2008 through a contract with the National
University of Colombia, which analyzed the quality and accuracy of the indicators and
data collected. In addition to the work of the contractors’ monitoring and evaluation
(M&E) regional teams, there are other mechanisms that we have put in place to
undertake independent spot checks of activity results. MIDAS, for example, has a
contract with an independent firm called “Jairo Perez” which undertakes site visits in
order to verify the results supporting documentation, the existence of the number of
hectares reported, the fulfillment of USAID environmental regulations, the execution of
the zero-illicit commitment, and the overall impression of the quality of the technical
assistance provided. Every MIDAS activity is visited at least twice a year and a sample
of 7 to 10 percent of beneficiaries per activity is randomly selected to undertake these
verifications.

A second mechanism the AD has put in place is the contract with Universidad de
Antioquia. Through this contract the ADO team undertakes field verification of reported
results and verifies the fulfillment of USAID environmental regulations. Since the
contract started in 2008, more than 107 visits have been performed. In addition, it is
also worth mentioning that the verification of the information is not only a task of the
M&E teams, but also of the technical person responsible for each activity. Field visit
reports are on file in the AD office.

Conscious of the need to create a more comprehensive data quality verification system,
the AD has designed a new USAID/Colombia M&E Program which will be contracted in
early 2010 and for which proposals are already being evaluated through a full and open
competitive process. The new M&E Program will provide continued performance
monitoring, verification, and impact evaluation of program results for all USAID/Colombia
programs, including new AD programs, for up to five years. Specifically, the M&E
Program will directly address the issue of data quality by undertaking periodic activity-
level verification of results in the field. This will ensure that USAID implementing
partners’ data is effective, complete, accurate and consistent with contractual
agreements. The Statement of Work for the program appears in Attachment 5.

Based on the above, we request that this recommendation be closed upon report
issuance.

Internal controls:

The recommendation states: “Require Associates for Rural Development to strengthen


                                                                                      23
its internal controls to decrease the risk of errors in the data collected and results
reported at the operating level.”

As described above, the Alternative Development office has strengthened the internal
controls of the departing current contractor, Associates for Rural Development. In
addition, we will require the implementers for the incoming programs to use pre-
determined and rigorous internal controls in data collection and results reporting. This
will be verified through the new USAID/Colombia M&E Program mentioned under the
previous point. The M&E Program will be implemented by an independent contract (not
a subcontract under any of the new implementers) and will directly address the issue of
data quality by undertaking periodic activity-level verification of results in the field and by
issuing concise guidelines for data collection, maintenance, processing and reporting
procedures as described in USAID’s policy ADS 203.3.5 for all implementing partners.
This will ensure that USAID implementing partners’ data is effective, complete, accurate
and consistent with contractual agreements.

Based on the above, we request that this recommendation be closed upon report
issuance.

We look forward to hearing from you at your earliest convenience regarding the contents
of this letter.




                                                                                            24
                                                                                                      APPENDIX III




Table 2.—Combined ADAM and MIDAS Program Indicator Results FY 2007 – June 30, 2009 (Unaudited)


                                                                                         Reported
                                                  FY 2007                   FY 2008     Cumulative
                                       FY 2007                 FY 2008                                  Life of
      Indicator            Project                Reported                  Reported      Actual
                                        Target                  Target                               Project Goal
                                                   Actual                    Actual      June 30,
                                                                                           2009
Number of Jobs          ADAM/MIDAS   81,596      50,556      168,897      179,231      284,622       243,713
Created

Total New Hectares      ADAM/MIDAS   116,165     91,917      336,823      317,557      441,215       461,844


Total Hectares          ADAM/MIDAS   112,763     53,621      97,463       121,305      153,724       138,588
Supported

Total Number of         ADAM/MIDAS   77,661      52,684      254,434      256,148      177,425       167,330
Families Benefited
(ACI)
Number of Families      MIDAS        194,093     76,172      269,439      226,364      270,670       156,425
Benefited (internal)

Total Natural Forest    MIDAS        62,302      16,728      60,122       86,382       343,023       340,677
Hectares Supported

Total Number of         MIDAS        N/A         N/A         134          391          397           119
Producer Associations
/ Processors
Strengthened
Private Sector Firms    MIDAS        3,036       3,268       1,124        10,504       10,699        10,495
Formed or
Strengthened




                                                                                                                    25
Table 2.—Combined ADAM and MIDAS Program Indicator Results FY 2007 – June 30, 2009 (Unaudited)


                                                                                                 Reported
                                                        FY 2007                     FY 2008     Cumulative
                                            FY 2007                     FY 2008                                 Life of
       Indicator             Project                    Reported                    Reported       Actual
                                             Target                      Target                              Project Goal
                                                         Actual                      Actual       June 30,
                                                                                                    2009
Number of consensus       MIDAS        N/A            N/A          N/A            N/A          62            60
accords signed

Number of productive      MIDAS        N/A            N/A          N/A            N/A          33            30
ethnic territories
supported
Social and Productive     ADAM         75             24           84             66           104           162
Infrastructure Projects
Completed
Strengthened              ADAM         N/A            N/A          48             31           63            71
Municipalities

Social Organizations      ADAM         N/A            N/A          415            472          1,016         890
Strengthened

People Benefited by       ADAM         N/A            N/A          16,326         18,995       45,207        32,436
National Programs

Public Sector Funds       ADAM         1,250,000      1,687,105    6,713,501      8,142,821    15,262,060    11,651,100
Leveraged (US$)

Private Sector Funds      ADAM         13,740,000     1,939,101    77,637,883     64,580,140   106,445,400   88,664,575
Leveraged (US$)




                                                                                                                            26
Table 2.—Combined ADAM and MIDAS Program Indicator Results FY 2007 – June 30, 2009 (Unaudited)


                                                                                          Reported
                                                   FY 2007                  FY 2008      Cumulative
                                        FY 2007                 FY 2008                                  Life of
      Indicator             Project                Reported                 Reported        Actual
                                         Target                  Target                               Project Goal
                                                    Actual                   Actual        June 30,
                                                                                             2009
Communities/Producer      ADAM        N/A         N/A         952          1,341        1,712         1,534
Associations Signing
Illicit-Free Agreements
Families Under Illicit-   ADAM        21,763      35,495      94,379       100,084      123,230       106,818
Free Agreements

Sales or GMV of Licit     ADAM        1,443,000   2,119,095   58,836,126   44,888,260   104,524,500   72,192,516
Production (US$)




                                                                                                                     27
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
